                                                          ~01fl0035
                              CLOSEOUT FOR A833)8635-

                                                                                  I

On October 2,2001, we received an allegation of unethical practices in the preparation of an
NSF proposal1.complainants2 alleged that Subject had met with them to discuss possible
collaborations, and that Subject subsequently submitted an NSF proposal incorporating their
ideas without acknowledging their contribution. Complainants were not responsive to our
requests for additional information. Accordingly, we evaluated the available evidence.

We reviewed Subject's proposal to form an assessment of whether the proposal represented his
own original work. We found the proposed research to be consistent with Subject's research
record and with his previous publications. We reviewed publications on which Subject was
author or co-author, and found them to be stylistically similar to the proposal. We also conducted
an Internet search using distinctive phrases in the proposal and failed to find any evidence of
plagiarism from Internet sources. Finally, we note that Subject recommended Complainant-1 as a
reviewer for his proposal, indicating no attempt to conceal his research plans.

OIG concluded there is no substantive evidence that misconduct occurred. This inquiry is closed
and no further action will be taken.

cc: Investigations, IG
               .   .




' [redacted]
* [redacted]

                                            Page 1 of 1
